MEMORANDUM


TO:            Greg Woods
               Chief Operating Officer
               Student Financial Assistance


FROM:          Lorraine Lewis


SUBJECT:       FINAL AUDIT REPORT
               Audit of the Illinois Student Assistance Commission’s
               Administration of the Federal Family Education Loan Programs
               Control Number ED-OIG/A05-90002


Attached is our subject report presenting our findings and recommendations resulting from our
audit of the Illinois Student Assistance Commission's administration of the Federal Family
Education Loan programs.

In accordance with the Department’s Audit Resolution Directive, you have been designated as the
action official responsible for the resolution of the findings and recommendations in this report.

If you have any questions or wish to discuss the contents of this report, please contact Richard J.
Dowd, Regional Inspector General for Audit, Chicago, Illinois at 312-886-6503.

Please refer to the above audit control number in all correspondence relating to this report.


Attachment
                                             Control Number ED-OIG/A05-90002



Mr. Larry E. Matejka
Executive Director
Illinois Student Assistance Commission
500 West Monroe Street, Third Floor
Springfield, Illinois 62704


Dear Mr. Matejka:

Enclosed is our report entitled Audit of the Illinois Student Assistance Commission’s
Administration of the Federal Family Education Loan Programs. We discussed the contents of
this report with your directors and Chief Program Officer on August 18, 1999. The report
incorporates the comments made during that discussion and those provided in response to our
finding point sheets. If you have any additional comments or information that you believe may
have a bearing on the resolution of this audit, you should send them directly to the following
Education Department official, who will consider them before taking final Departmental action on
the audit:

               Greg Woods, Chief Operating Officer
               Student Financial Assistance
               U.S. Department of Education
               Regional Office Building, Room 4004
               7th and D Streets, S.W.
               Washington, D.C. 20202-5132

Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
resolution of audits by initiating timely action on the findings and recommendations contained
therein. Therefore, receipt of your comments within 30 days would be greatly appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office
of Inspector General are available, if requested, to members of the press and the general public to
the extent information contained therein is not subject to exemptions in the Act.
Mr. Larry E. Matejka
Page 2



If you have any questions or wish to discuss the contents of this report, please contact Richard J.
Dowd, Regional Inspector General for Audit, Chicago, Illinois at 312-886-6503. Please refer to
the audit control number in all correspondence relating to this report.

                                                       Sincerely,



                                                       Lorraine Lewis


Enclosure




                                              Page 2
     AUDIT OF THE ILLINOIS STUDENT ASSISTANCE
   COMMISSION’S ADMINISTRATION OF THE FEDERAL
        FAMILY EDUCATION LOAN PROGRAMS


                                 FINAL AUDIT REPORT




                              Control Number ED-OIG/A05-90002
                                        December 1999




Our mission is to promote the efficient                U.S. Department of Education
and effective use of taxpayer dollars                  Office of Inspector General
in support of American education                       Chicago, Illinois
                                        NOTICE

Statements that financial and/or managerial practices need improvement or recommendations that
costs questioned be refunded or unsupported costs be adequately supported, and
recommendations for the better use of funds, as well as other conclusions and recommendations in
this report, represent the opinions of the Office of Inspector General. Determinations on these
matters will be made by the appropriate U.S. Department of Education officials. In accordance
with the Freedom of Information Act (5 U.S.C. §552), reports issued by the Office of Inspector
General are available, if requested, to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.
Table of Contents
Audit of the Illinois Student Assistance Commission’s Administration of
the Federal Family Education Loan Programs
Control Number ED-OIG/A05-90002

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Audit Results

         Enhance Claims Review Procedures to Ensure Lenders' Certifications Are
         Fully Supported by Payment and Collection Histories . . . . . . . . . . . . . . . . . . . . . . . 2


         Strengthen Controls Over Imaging to Ensure Complete and Accurate Copies
         of Claim Packets . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

Appendix A
         Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . A1

Appendix B
         Objectives, Scope, and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . B1

Appendix C
         Statement on Management Controls . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . C1
                     Executive Summary
Our audit disclosed that the Illinois Student Assistance Commission (ISAC) generally
administered the Federal Family Education Loan (FFEL) programs according to federal laws and
regulations. Our review of 59 randomly selected claims (from a universe of 22,173) disclosed
only one significant instance of noncompliance and identified two potential weaknesses in ISAC’s
system of management controls. Consequently, we did not expand our review beyond our initial
probe sample. We recommend that Student Financial Assistance instruct ISAC to remit $17,084
of reinsurance paid for a loan that a lender failed to convert to repayment timely. To reduce the
risk of ISAC improperly paying future claims and ensure ISAC has adequate documentation to
support its reinsurance requests, we recommend Student Financial Assistance instruct ISAC to (1)
revise its claims review procedures and (2) strengthen its management controls over its
computerized imaging process. ISAC generally concurred with our findings and
recommendations. For additional information on ISAC; the FFEL programs; our objectives,
scope, and methodology; and ISAC's management controls, see Appendices A, B, and C,
respectively.




FINAL AUDIT REPORT                             Page 1                     Control Number ED-OIG/A05-90002
                              Audit Results
Enhance Claims Review Procedures to Ensure Lenders’Certifications Are
Fully Supported by Payment and Collection Histories

ISAC Improperly Paid a       We randomly selected a sample of 59 claims from a universe
$17,084 Claim to a Lender    of 22,173 claims and reviewed the claim packets to ensure
That Failed to Convert the   the lender adhered to all applicable due diligence
Loan to Repayment Timely     requirements. (See Appendix B for a detailed description
                             of our sample selection methodology.) We found that ISAC
                             improperly paid a claim for $17,084 for a loan that the
                             lender failed to convert timely to repayment.

                             Based on the records the lender submitted to ISAC and
                             maintained in ISAC’s file, the borrower’s last day of school
                             was May 8, 1996. The borrower’s six-month grace period
                             should have ended about November 8, 1996. The lender
                             claimed, however, that it did not know the borrower had
                             left school until it received a Student Status Confirmation
                             Report from ISAC on July 3, 1997. The lender then
                             established a first payment due date of August 4, 1997, even
                             though other information in the file clearly showed that the
                             school informed the lender on October 10, 1996, that the
                             borrower had left school. The lender should have
                             established a first payment due date no later than December
                             23, 1996, and started its collection activities shortly
                             thereafter. Instead, the lender did not begin its collection
                             activities until August 19, 1997, a gap of 239 days.

                             According to Title 34 Code of Federal Regulations (34
                             CFR) 682.406(a)(1) and (3), ISAC is entitled to reinsurance
                             payments on a loan only if the lender exercised due
                             diligence in making, disbursing, and servicing the loan. The
                             lender must provide accurate collection and payment
                             histories with the default claim showing that the lender
                             exercised due diligence in collecting the loan through
                             collection efforts meeting the requirements of 34 CFR
                             682.411. For the purposes of this section, the lender must
                             establish the due date of the first payment no later than 45
                             days following the end of the grace period and file a default
                             claim by the 270th day of delinquency. At no point may the
                             lender permit a gap in collection activity of more than 45
                             days. If a gap of 46 days or more occurs, or the lender fails
FINAL AUDIT REPORT                    Page 2                     Control Number ED-OIG/A05-90002
Enhance Claims Review Procedures to Ensure Lenders’Certifications Fully Supported

                                   to file the claim by the 270th day of delinquency, the agency
                                   should reject the claim and cancel the loan guarantee. The
                                   cancellation is effective from the date of the earliest
                                   unexcused violation.

ISAC’s Account Analysts            We concluded that the error rate did not justify expanding
Do Not Thoroughly Review           our sample to identify the full extent of the problem.
All Claim Packets                  However, the improper payment demonstrates a weakness
                                   in ISAC's claim review procedures. ISAC’s account
                                   analysts do not thoroughly review all claim packets.
                                   Instead, ISAC relies on the lenders’certifications that the
                                   claims are legitimate, the lenders have completed all the
                                   necessary due diligence, and the lenders' collection and
                                   payment histories support the certifications. ISAC requires
                                   the lender to submit a Request for Preclaim Assistance and
                                   Claim Reimbursement form, which includes all pertinent
                                   loan information (including any payments the borrower
                                   made). As proof of due diligence, ISAC requires the lender
                                   to certify and sign a Due Diligence/Cure Checklist stating it
                                   performed the required due diligence activities. ISAC also
                                   requires the lender to submit its entire collection and
                                   payment histories (usually computer printouts). However,
                                   ISAC's account analysts do not routinely review collection
                                   and payment histories and compare that information to
                                   activities the lender reported on the Request for Preclaim
                                   Assistance and Claim Reimbursement form and Due
                                   Diligence/Cure Checklist.

Risks Transferred to ED            ISAC’s claims review policy transfers the potential risks
                                   inherent in the reduced claim file review to ED. Relying on
                                   the lenders’certifications does not provide ED reasonable
                                   assurances that claims are legitimate and the lender
                                   completed all required due diligence. Any claims that ISAC
                                   might erroneously pay would only be detected through
                                   limited tests during subsequent audits and program reviews.




FINAL AUDIT REPORT                          Page 3                     Control Number ED-OIG/A05-90002
           Enhance Claims Review Procedures to Ensure Lenders’Certifications Fully Supported



RECOMMENDATIONS                    We recommend Student Financial Assistance instruct ISAC
                                   to:

                                   1.     Remit $17,084 of reinsurance paid for the loan that
                                          the lender failed to convert to repayment timely; and

                                   2.     Enhance its claims review procedures and ensure
                                          that account analysts, at a minimum, make sure the
                                          information on the Due Diligence/Cure Checklist
                                          and Request for Preclaims Assistance and Claim
                                          Reimbursement form are supported by the lenders’
                                          collection and payment histories. ISAC could limit
                                          the review to the loan’s conversion to repayment
                                          and the latest 180-day period of delinquency.

Auditee Comments                   In ISAC’s response to our point sheet regarding the
                                   incorrectly paid claim, ISAC stated that the lender indicated
                                   it did err in completing the Due Diligence/Cure Checklist,
                                   and the student’s last day of attendance was May 8, 1996.
                                   However, ISAC did not agree that its account analysts
                                   should thoroughly review all the lenders’collection and
                                   payment histories. ISAC officials told us that they:

                                          ...do require all lenders to provide their
                                          collection history by having the lender recap
                                          its collection activities that are required
                                          under regulation and certify thereto on the
                                          Due Diligence/Cure Checklist; this checklist
                                          is thoroughly reviewed by the Claims
                                          Analysts [account analysts].


Auditor’s Response                 We made minor changes to this finding based on ISAC’s
                                   comments.




FINAL AUDIT REPORT                          Page 4                     Control Number ED-OIG/A05-90002
Strengthen Controls Over Imaging to Ensure Complete and Accurate Copies
of Claim Packets

ISAC Did Not Have All the    Our review of 59 claims from a universe of 22,173 claims
Documents Lenders            that ISAC paid between October 1, 1997, and September
Submitted With Their         30, 1998, disclosed that ISAC was missing pages from 9
Request for Claim            claim packets. Six claim packets were missing pages from
Reimbursement                the collection or payment histories from the latest 180-day
                             period of delinquency. Three other claim packets were
                             missing collection histories (one was also missing the
                             payment history) prior to the latest 180 days of delinquency.

                             According to 34 CFR 682.406 (a)(3), a guaranty agency is
                             entitled to reinsurance payments on a loan only if the lender
                             provided accurate collection and payment histories. The
                             histories must be sufficient to support guarantor review for
                             claim payment and show that the lender exercised due
                             diligence in collecting the loan meeting the requirements of
                             34 CFR 682.411. The Guaranty Agency Common Manual,
                             which ISAC has adopted, requires lenders to submit the
                             following nine items of documentation so the guaranty
                             agency can determine the claim's validity:

                             1.     Guarantor’s Claim Form;
                             2.     Original Application and Promissory Note;
                             3.     Assignment of Promissory Note;
                             4.     Evidence of Disbursement;
                             5.     Out-of-School Date Information;
                             6.     Repayment Disclosure;
                             7.     Deferment/Forbearance Documentation;
                             8.     Collection History; and
                             9.     Complete Payment History.


ISAC Might Not Have          Without a complete and accurate computer image of the
Adequate Documentation       claim packet, ISAC might not have adequate documentation
to Support Its Request for   to support its request for reinsurance or support that the
Reinsurance                  lender serviced the claim properly. When we asked for
                             support for the nine claims, ISAC needed to contact the
                             lender to obtain the missing documents.




FINAL AUDIT REPORT                    Page 5                     Control Number ED-OIG/A05-90002
Strengthen Controls Over Imaging to Ensure Complete and Accurate Copies of Claim Packets

ISAC’s Management                  ISAC’s imaging policies and procedures do not ensure that
Controls for Imaging Do            ISAC maintains complete and accurate computer images of
Not Ensure Complete and            original claim packets. After it images a claim packet,
Accurate Computer Images           ISAC destroys the paper documents, leaving the computer
of Claim Packets                   image as its only evidence of its right to reinsurance.

                                   ISAC’s imaging personnel only check to make sure the first
                                   five documents are imaged correctly. These main
                                   documents include the Request for Preclaims Assistance and
                                   Claim Reimbursement form and the Due Diligence/Cure
                                   Checklist. ISAC’s imaging personnel do not review the rest
                                   of the claim packet to ensure all of the collection and
                                   payment histories, including those covering the loan’s
                                   conversion to repayment and latest 180-day period of
                                   delinquency, are imaged. These procedures do not ensure
                                   ISAC has an imaged copy of all the documentation the
                                   lender submitted.

                                   We spoke with representatives from two other guaranty
                                   agencies. We learned their imaging personnel ensure that
                                   every paper document is imaged prior to destruction.


RECOMMENDATIONS                    We recommend Student Financial Assistance instruct ISAC
                                   to improve management controls over imaging to ensure it
                                   keeps a complete and accurate computer image of all the
                                   documentation the lender submitted to support its request
                                   for claim reimbursement.

Auditee Comments                   ISAC stated that it believes that the lender submitted the
                                   pages correctly but, through clerical or machine
                                   malfunction, ISAC did not image the missing pages. ISAC
                                   did not believe it needed to maintain an exact image of the
                                   entire claim packet the lender submitted. Instead, ISAC
                                   believes that ensuring it has the Request for Preclaims
                                   Assistance and Claim Reimbursement form and Due
                                   Diligence/Cure Checklist (which contains the lender's
                                   certified recap of the collection history) is sufficient
                                   evidence to support its right to reinsurance and that the
                                   lender serviced the account according to the regulations.



FINAL AUDIT REPORT                          Page 6                    Control Number ED-OIG/A05-90002
   Strengthen Controls Over Imaging to Ensure Complete and Accurate Copies of Claim Packets

Auditor’s Response                We still believe ISAC needs to maintain an imaged copy of
                                  the entire claim packet the lender submitted.




FINAL AUDIT REPORT                         Page 7                   Control Number ED-OIG/A05-90002
                                                                             Appendix A

Background
Federal Family Education   Title IV of the Higher Education Act of 1965, as amended,
Loan Programs and          authorizes several FFEL programs. These programs include
Guaranty Agencies          the Federal: (1) Stafford Loan, which encourages making
                           loans to eligible undergraduate, graduate, and professional
                           students; (2) Supplemental Loans for Students, in effect for
                           periods of enrollment beginning prior to July 1, 1994, which
                           encouraged making loans to eligible graduate, professional,
                           independent undergraduate, and certain dependent
                           undergraduate students; (3) PLUS, which encourages
                           making loans to parents of eligible, dependent
                           undergraduate students; and (4) Consolidation Loan, which
                           encourages making loans to eligible borrowers for the
                           purpose of consolidating their payment obligations.

                           A guaranty agency guarantees a lender against losses due to
                           borrower default on FFEL loans, and ED reinsures the
                           agency for all or part of the default claims the agency pays
                           to lenders. As part of the claim process, a guaranty agency
                           reviews claim packets to determine that the lender exercised
                           due diligence in collecting loans. The collection efforts
                           must meet the requirements of 34 CFR 682.411 and ED
                           Dear Guaranty Agency Director letter 88-G-138 dated
                           March 11, 1988. All regulatory citations in this report are
                           to the compilations dated December 31, 1997.

Description of ISAC        In 1957, the Illinois General Assembly created ISAC
                           (originally called the Illinois State Scholarship Commission)
                           to provide all Illinois residents access to higher education.
                           ISAC is a State agency backed by the faith and credit of the
                           State of Illinois and has three different locations
                           (Springfield, Chicago, and Deerfield, Illinois). Its main
                           operations are in Deerfield, Illinois.

                           ISAC guarantees loans for qualified borrowers for use at
                           any approved institution of higher learning, provided the
                           borrower is eligible for a loan under the Higher Education
                           Act of 1965. All approved lenders must execute an ISAC
                           Lender Agreement prior to participating in the FFEL
                           program through ISAC. The lenders must have received
                           ED approval prior to executing a Lender Agreement. ISAC
FINAL AUDIT REPORT                   A1                        Control Number ED-OIG/A05-90002
Appendix A - Background

                          will cancel a guarantee if the lender fails to comply with
                          Federal regulations or ISAC’s rules or procedures.

                          According to its computerized records, ISAC paid lenders
                          for 22,173 claims (for which ED paid ISAC reinsurance)
                          from October 1, 1997, through September 30, 1998. The
                          total amount of all claims was $125,075,481. Lenders
                          submitted claims for the following reasons:

                                                       Number of        Amount of
                                    Reason              Claims           Claims
                           Slow Pay (Default)               19,902     $110,222,320
                           Bankruptcy                         1,325       $7,892,993
                           Disability                           542       $4,298,658
                           Death                                370       $2,523,639
                           Closed School                         22           $73,278
                           False Certification                    4           $12,307
                           Others                                 8           $52,286
                           Total                            22,173     $125,075,481




FINAL AUDIT REPORT                  A2                        Control Number ED-OIG/A05-90002
                                                                           Appendix B

Objectives, Scope, and Methodology
Objectives and Scope    The objective of our audit was to determine whether ISAC
                        complied with federal laws and regulations governing the
                        FFEL programs during the period October 1, 1997, through
                        September 30, 1998. Specifically, we wanted to ensure
                        ISAC adhered to laws and regulations relating to ED’s
                        payment to ISAC of reinsurance on lender claims. We
                        focused on ISAC’s claim review and approval procedures
                        and the adequacy of ISAC’s supporting documentation for
                        claims paid.

Methodology             To accomplish our audit objective, we talked to ED
                        officials, key ISAC officials and staff, and representatives
                        from the State of Illinois’Auditor General’s office and its
                        special assistant auditors. We also reviewed written policies
                        and procedures, reports on reviews and audits of ISAC
                        conducted by other entities, and claim packets that lenders
                        submitted. We reviewed 59 claims selected from ISAC’s
                        universe of claims paid to lenders from October 1, 1997, to
                        September 30, 1998.

Sampling and Claim      To select claims for review, we first defined the sampling
Review Methodology      unit, universe, and sampling frame. We analyzed the
                        sampling frame and identified certain characteristics that we
                        used to stratify our universe. We first divided our sampling
                        frame by why (slow pay/default, bankruptcy, disability,
                        death, closed school, false certification, and other) the
                        lender submitted the claim. Next we divided our slow pay
                        claims universe into 8 different strata based on the number
                        of claims each lender submitted. We identified 6 lenders
                        that submitted 1,000 or more claims during the audit period.
                        We considered each its own strata. We divided the
                        remaining lenders’claims into 2 strata.

                        We randomly selected 52 slow pay claims, 15 from the first
                        strata, 5 from each of the next 5 strata, 9 from the 7th strata,
                        and 3 from the 8th strata. We also randomly selected 2
                        claims each from the bankruptcy, disability, and death
                        strata, and 1 claim each from the closed school and false
                        certification strata. (Note: ISAC incorrectly entered the
                        reason for the false certification claim we selected;
FINAL AUDIT REPORT                 B1                        Control Number ED-OIG/A05-90002
Appendix B - Purpose, Objectives, Scope, and Methodology

                                therefore, we eliminated that claim from our review.) We
                                used a random number generator to select a sample for each
                                strata.

                                For our review of the claims, we developed a spreadsheet to
                                capture the information we collected through our review of
                                ISAC’s claim files and data on ISAC’s computer system.
                                The spreadsheet helped us determine whether the lender
                                exercised due diligence in servicing the loan, included all
                                required documentation, and filed the claim timely.


Reliability of Computer-        To achieve our audit objectives, we extensively relied on
Processed Data                  computer-processed data in ISAC’s Illinois Guaranteed
                                Loan Program Student Databases. We assessed the
                                reliability of this data, including relevant general and
                                application controls, and found them to be adequate. We
                                tested the accuracy, authenticity, and completeness of the
                                data by comparing source records to computer data and
                                duplicating selected computer processes. Based on these
                                assessments and tests, we concluded that the data are
                                sufficiently reliable for use in meeting this audit’s objectives.

                                We preformed field work at ISAC in Deerfield, Illinois from
                                November 16, 1998, through March 25, 1999. We
                                completed additional work in our Chicago office from
                                March 29 through July 1, 1999. We performed our audit
                                according to Government Auditing Standards appropriate
                                to the limited scope of audit described.




FINAL AUDIT REPORT                         B2                         Control Number ED-OIG/A05-90002
                                                                            Appendix C

Statement on Management Controls
Statement on Management   As part of our review, we assessed ISAC’s system of
Controls                  management controls, including policies, procedures, and
                          practices applicable to its administration of the FFEL
                          programs. We performed our assessment to determine the
                          level of control risk for determining the nature, extent, and
                          timing of our tests to accomplish the audit objectives.

                          To make our assessment, we identified significant controls
                          and classified them into the following three categories:

                          C      Receipt of Claim Request from Lender

                          C      Review and Approval of the Claim Packet

                          C      Voucher Preparation and Payment of the Claim

                          Because of inherent limitations, a study and evaluation made
                          for the limited purpose described above would not
                          necessarily disclose all material weaknesses in ISAC’s
                          management controls. However, our assessment disclosed
                          two management control weaknesses that could adversely
                          affect ISAC’s ability to administer the FFEL programs. Our
                          limited scope audit identified weaknesses in controls
                          specifically related to ISAC’s review of lenders’requests for
                          claim payment and ISAC’s maintenance of supporting
                          documentation (See Audit Results for an explanation of the
                          two weaknesses).




FINAL AUDIT REPORT                  C1                        Control Number ED-OIG/A05-90002
                                  REPORT DISTRIBUTION LIST
                               CONTROL NUMBER ED-OIG/A05-90002

Action Official                                                               No. of Copies

Mr. Greg Woods                                                                  Original
Chief Operating Officer
Student Financial Assistance
U. S. Department of Education

Other ED Officials

Barry Morrow, General Manager, Financial Partners                                  1
Student Financial Assistance

Linda Paulsen, Acting Chief Financial Officer,                                     1
Student Financial Assistance

Jeanne Van Vlandren, General Manager, Students                                     1
Student Financial Assistance

Judith A. Winston, General Counsel, Office of the General Counsel                  1

Post Audit Group Supervisor, Financial Improvement and Post Audit                  1
Operations, Office of the Chief Financial Officer

Director, Office of Public Affairs                                                 1

Secretary’s Regional Representative - Region V, Chicago                            1

Roberta Russo, Director, Northern Region, Financial Analysis and Oversight,        1
Financial Partners, Student Financial Assistance

ED-OIG Officials

Inspector General                                                                  1

Deputy Inspector General                                                           1

Assistant Inspector General for Audit                                              1

Assistant Inspector General for Investigations                                     1

Deputy Assistant Inspector General for Audit                                       1

Counsel to the Inspector General                                                   1

Planning, Analysis, and Management Services                                        1

Audit Services                                                                     1

Special Agent In Charge - Chicago                                                  1

Regional Inspectors General for Audit
       Atlanta, Dallas, Kansas City, New York, Philadelphia, Sacramento,           8
       and Washington

Region V Audit Office                                                              2
